                  National Science Foundation • Office of Inspector General
                  4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230


MEMORANDUM


DATE:                 March 23, 2012

TO:                   Dr. Cora B. Marrett
                      Deputy Director, National Science Foundation

FROM:                 Dr. Brett M. Baker /s/
                      Assistant Inspector General for Audit

SUBJECT:              Audit of NSF-Funded Conference Activities (Staff Retreats),
                      Report No. 12–02-009

Attached please find the final report of our audit of NSF funded conference activities,
specifically focused on staff retreats. The report contains one finding on the need for
NSF to improve internal control governing staff retreats. We have included NSF’s
response as an appendix to the final report.

In accordance with Office of Management and Budget Circular A-50, Audit Followup,
please provide a written corrective action plan within 60 days to address the report
recommendation. This corrective action plan should detail specific actions and milestone
dates.

We appreciate the courtesies and assistance provided by so many NSF staff during the
audit. If you have any questions, please contact Marie Maguire, Senior Audit Manager,
at (703) 292-5009.

Attachment

cc:    Subra Suresh                                     Clifford Gabriel
       Arthur K. Reilly                                 Allison Lerner
       Michael Van Woert                                Marie Maguire
       Martha Rubenstein                                Kelly Stefanko
       Gene Hubbard                                     Emily Franko
       Joanna Rom                                       Karen Scott
  Audit of NSF-Funded
  Conference Activities
    (Staff Retreats)



National Science Foundation
Office of Inspector General



       March 23, 2012
       OIG 12-2-009
Introduction

Background

The National Science Foundation (NSF) funds a variety of conferences, such as:
   • Conferences hosted by NSF awardees for purposes related to grant objectives,
   • Formal conferences NSF hosts on various subject matters and attended by
     Federal employees and / or nongovernmental personnel,
   • Panel meetings to review and evaluate proposals for grants, and
   • Staff retreats held by individual NSF offices, directorates, or divisions.

The Office of Management and Budget (OMB), in Memorandum M-11-35, Eliminating
Excess Conference Spending and Promoting Efficiency in Government, dated
September 21, 2011, directed all Federal agencies and departments to conduct a
thorough review of the policies and controls associated with conference-related
activities and expenses. This memorandum cites a September 2011 Department of
Justice (DOJ) Office of Inspector General (OIG) audit report, which identified insufficient
internal controls to limit costs for planning and food and beverages for DOJ
conferences. Pursuant to this OMB memorandum, NSF’s Internal Control Quality
Assurance Team, under the Division of Financial Management, initiated a
comprehensive review of NSF’s conference related activities. We also began this audit
of the reasonableness and effectiveness of internal controls governing NSF conference-
relate spending. We coordinated our audit with NSF’s internal review to minimize
duplicative efforts.

We decided to focus our audit efforts specifically on staff retreats as a discretionary
subset of conference activities funded by NSF. Based on information NSF offices and
directorates reported, NSF held 95 staff retreats in Fiscal Years (FY) 2010 and 2011
combined. The OIG conservatively estimates the total cost of those retreats, based on
the low end of the range of the costs reported, to be at least $361,000 spent over these
two years.


Audit Results – Internal Control Over NSF Staff Retreats
Could Be Improved
Our review of nine NSF staff retreats1 found several areas in which NSF could improve
internal control to better ensure cost containment and compliance with applicable
standards. First, we identified a lack of support to ensure that retreat sites selected
were the most cost effective as required by the Federal Travel Regulation (FTR). As a
result, NSF may have overspent on staff retreats. Second, because NSF had not set a

1
    Our sample of nine retreats were held in FY 2010 and FY 2011 and cost $132,702.

                                                    1
standard for how much should be spent on refreshments at retreats, the amount that
could be spent varied across the agency and was left to the discretion of individual
retreat organizers. We also found that NSF did not have an internal policy to ensure
compliance with the FTR and adequate management control over retreat costs. Finally,
we were concerned about how often retreat organizers were unable to provide an
invoice from the hotel where retreats were held. This was particularly troubling as hotel
costs were generally the largest amount of retreat expenses.

It is important to note that we did not identify any instances of retreat participants
inappropriately claiming reimbursement for meals that were provided. Further, it
appeared that retreat planners generally attempted to be cost conscious.

Conference Planning Guidance

The Federal Travel Regulation (FTR), Part 301-74, “Conference Planning” specifies a
number of agency responsibilities in planning conferences. For example, agencies
must minimize all conference costs, including administrative costs and conference
attendees’ travel costs and time. In addition, agencies must maximize the use of
Government-owned or Government-provided conference facilities to the extent possible.
Also, the FTR requires agencies to establish their own internal policies to ensure FTR
conference planning standards are met.

The FTR further states that agencies must provide assurance that there is appropriate
management oversight of the planning process. Agencies must always perform cost
comparisons of the size, scope, and location of the proposed conference. Moreover, for
each conference an agency sponsors or funds in whole or in part for 30 or more
attendees, the agency must consider at least three sites and maintain a record of the
costs of each alternative site considered. A site refers to both the geographical location
and the specific facility. The FTR specifies that records pertaining to alternate sites be
made available for inspection to the agency’s OIG or other interested parties.

Furthermore, on November 9, 2011, after our audit began, the White House issued
Executive Order 13589, Promoting Efficient Spending, which directed agency heads to
take aggressive steps to ensure that the Government is a good steward of taxpayer
money. This executive order requires Federal agencies to establish a plan for reducing
administrative costs, including travel, by not less than 20 percent below FY 2010 levels
in FY 2013. Specifically, agencies were directed to "make all appropriate efforts to
conduct business and host or sponsor conferences in space controlled by the Federal
Government, wherever practicable and cost effective."

Better Documentation Needed to Ensure Retreat Decisions are Based on
Consideration of Complete Cost

Retreat planners were not always able to document that they attempted to minimize
costs to the government in planning their retreats. There was no evidence maintained
that comprehensive cost calculations were done to ensure that the choice of a retreat
                                              2
site was the most cost-effective option as required by FTR. Retreat planners that we
interviewed were unaware of, and therefore did not consider, FTR conference planning
standards when planning their respective retreats. Because records were not
maintained to demonstrate that planners attempted to maximize the use of government
owned facilities and minimize attendee travel and time costs, NSF may have overspent
on staff retreats.

Reasonable Standard for Refreshment Costs Not Established

Through per diem rates established by the U.S. General Services Administration (GSA),
there is a government-wide standard for the reasonable amount to pay for meals and
lodging based on location. However, there is no similar basis to assess cost
reasonableness for refreshments.

NSF does not have a standard for how much can be spent on refreshments at staff
retreats. NSF internal guidance addresses certain situations when appropriated funds
can be used to pay for food and drink, such as in conjunction with official travel and for
government employee training. Further, NSF internal guidance defines the types of
food and beverage appropriate to serve as “light refreshments” for staff retreats held
outside the Washington metropolitan area. However, it does not establish a standard
defining the reasonable amount to spend on these items.

In April 2011, NSF established internal guidance instituting a maximum limit of $25 per
day that can be spent per panelist or committee member on light refreshments served
at panel, advisory committee, and committee of visitors meetings that are held on-site at
NSF. However, NSF has not established a similar limit for the cost of light refreshments
served at conferences, such as staff retreats, that are held off-site.

Because NSF does not have a standard for cost reasonableness for staff retreat
refreshments, management control over spending is decreased, as the amount of such
costs is left to the discretion of individuals throughout the agency planning retreats.


NSF Policy Needed to Ensure Federal Standards for Conference Planning are Met

NSF did not have any internal policies that incorporate federal standards on planning
conferences as required by FTR. For example, the FTR provides a basis for location
and facility selection which we did not find in any NSF guidance. Such guidance
should also provide for appropriate management oversight and establishing
reasonableness with respect to costs. The NSF retreat planners we met with were not
aware of FTR Part 301-74 and its requirements to minimize costs.

Among the nine staff retreats we reviewed, we saw a variety of practices and
expectations. It is difficult to hold staff accountable and ensure consistency for
practices that are not governed by a policy. The retreat planners we interviewed spoke
of the need for clear and comprehensive conference planning guidance, particularly in
                                             3
planning staff retreats. For example, one indicated that a checklist of potentially
applicable Federal rules and NSF policy to consider when planning a retreat would be
helpful.

Detailed Invoices are Not Being Obtained and Reviewed

During our audit, we were concerned with the frequency in which we found that retreat
planners did not have an invoice from the host hotel, which generally represented the
largest amount of retreat expenses. Without the invoice, it is unclear how retreat
planners were able to properly approve the applicable payment.

The payment approver is notified when payment information has been entered into the
NSF financial system. The payment approver is expected to note any inaccuracies with
the payment amount, such as costs included in the total that are erroneous or
overpriced. However, some retreat planners stated that they only checked to ensure
that the total payment amount did not exceed the appropriated or contracted amount.
Billing mistakes or overcharges, such as those we found during our audit, may remain
undetected if the detailed charges are not reviewed.

Retreat planners for six of eight staff retreats that obtained the host hotel through a
contract did not have a detailed invoice upon our audit request. Based on the billing
issues we identified, NSF should review its procedure for invoice payment to ensure
detailed invoices are being properly obtained and reviewed.

Stronger Internal Control Needed to Prevent Mistakes

Overall our audit found that absent sufficient controls such as guidance and monitoring,
there is a risk that NSF could overpay for staff retreats. Because staff retreats are
funded by NSF’s Agency Operations and Award Management appropriation, excess
retreat costs reduce the amount of funds NSF has available to monitor grant recipients
to ensure proper stewardship of Federal funds.

Further, because they did not have sufficient guidance and oversight, NSF retreat
planners did not always comply with rules and regulations governing the spending
incurred. Specifically we found these lapses in internal controls that went undetected
until our audit:

   •   Records of consideration of at least 3 sites, which are required to be maintained
       for conference for 30 or more attendees, were not available for the 4 retreats in
       our sample that met that criterion.
   •   NSF paid for lodging for two retreats outside of the Washington metropolitan area
       at rates that exceeded the GSA lodging per diem rate. For one retreat, held
       during the summer in Virginia Beach, NSF paid $299 per person per night when
       the FTR lodging rate was $144 (exceeded the maximum rate by 108 percent).
       For another retreat, held during the summer in Ocean City, Maryland, NSF spent

                                             4
     $274 per lodging room per night when the maximum per diem rate for lodging
     was $192 (exceeded the rate by 43 percent). The FTR provides for a senior
     agency official to allow for up to 25% above the applicable locality lodging per
     diem rate. No such approval existed for these retreats. Retreat lodging
     was procured and paid centrally through a contract as opposed to being paid for
     individually by participants. This allowed per diem lodging limits, normally
     imposed by the travel reimbursement system, to be avoided without the need for
     special approval.
 •   Auditors were unable to reconcile the costs on the hotel invoice with the agreed
     upon line item expenses per the contract for two retreats. Neither retreat planner
     recalled obtaining the hotel invoice. For one retreat, the per-person cost on the
     hotel invoice was greater than the cost per the contract and the invoice included
     luggage fees that were not included in the contract. The total costs invoiced
     were below the contracted costs, despite these extra charges, because the
     contract amount was based on having two more attendees than actually
     attended.
 •   On a third retreat in which the retreat planner did not obtain an invoice, NSF was
     erroneously billed for and paid an extra night's lodging for one participant.
     Because the retreat planner never received or reviewed the hotel invoice, this
     overpayment was not detected until the planner obtained the invoice at the
     request of our audit. The hotel subsequently reimbursed NSF for the
     overcharge.
 •   Travel authorizations were not completed in advance for 33 participants who
     traveled by bus to attend a retreat in Williamsburg, VA or for 4 participants who
     carpooled to attend a retreat in Ocean City, MD. NSF Bulletin 09-03 Travel-
     Definition of Official Travel requires an appropriate approving official to formally
     authorize official travel before it commences.
 •   One hotel charged a "$142/person/night conference fee," combining meal and
     refreshment charges with audio visual (AV) equipment use, room rental, and
     service fees which made it difficult to determine if meal charges were within per
     diem. Assuming meals and refreshments were provided within per diem, costs
     charged for two days use of the conference room and standard AV equipment,
     and service fees for 41 people was $7,462.
 •   NSF paid taxes to the host hotel for one retreat held in 2010. During our audit,
     NSF requested and ultimately obtained reimbursement for the taxes paid.
 •   NSF overpaid three local mileage reimbursement claims for one retreat because
     the employees did not reduce the amount of their claims by their normal
     commuting costs.


Recommendations
 1. We recommend that NSF’s Deputy Director develop policy incorporating the
    conference planning requirements of FTR Section 301-74. Such policy should
    provide a basis for clear expectations of justification of cost, reasonableness of
                                           5
      spending, and sufficiency of management oversight.


   2. In light of current budget constraints and Executive Order 13589, we recommend
      that NSF’s Deputy Director reevaluate the practice of traveling outside of the
      Washington metropolitan area for staff retreats.


Summary of Agency Response and OIG Comments
In its response, NSF concurred with the OIG’s recommendations. NSF agreed that
more conference planning guidance is needed and that travel for staff retreats outside
of the Washington metropolitan area merits reevaluation. NSF stated that it is currently
in the process of reviewing the results of the internal control study of NSF conference
activity in FY 2010 and FY 2011 and anticipates including the Federal Travel Regulation
conference planning guidance (41 CFR 301-74) as part of the materials.

We consider management’s comments and planned actions to be responsive to our
recommendations. We look forward to receiving the Corrective Action Plan and working
with NSF officials to confirm implementation.

We have included NSF's response to this report in its entirety as Appendix A.


OIG Contact and Staff Acknowledgements
Marie Maguire – Director of Performance Audits
(703) 292-5009 or mmaguire@nsf.gov

In addition to Ms. Maguire, Susan Carnohan, Kelly Stefanko, Emily Franko, and Mary
Lam made key contributions to this report.




                                           6
Appendix A: Agency’s Response




                          7
Appendix B: Objective, Scope and Methodology
The objective of this audit was to evaluate: (1) internal controls governing NSF funded
conference-related spending and (2) the reasonableness of conference expenses. The
scope of our work focused exclusively on staff retreats held in FYs 2010 and 2011.

We were not able to obtain the universe of NSF's staff retreat spending from a query of
NSF’s Financial Accounting System because the system did not have any consistent or
unique codes for staff retreat costs. Rather, we coordinated with NSF’s Internal Control
Quality Assurance Team to develop an NSF-wide data call to division level
administrative officers to obtain the universe of conference activity. We relied on
information from this data call to determine the universe of staff retreats.

We selected nine staff retreats, representing a mix of directorates and locations both
inside and outside of the Washington metropolitan area, for audit. We judgmentally
selected our sample using a risk-based approach. We considered retreats with the
highest cost, locally held retreats with the highest cost, and retreats held the farthest
distance from NSF to be the highest risk. We selected three retreats held in the
Washington metropolitan area with the highest reported costs estimates. Finally, we
judgmentally selected six retreats that were the farthest mileage distance from NSF’s
offices in Arlington, VA (Virginia Beach, VA; Ocean City, MD; and Williamsburg, VA),
attempting to get representation from a wide range of NSF Directorates and Offices.
We conducted the audit between October 2011 and February 2012 at NSF’s
headquarters in Arlington, VA.

To establish a framework for evaluating the reasonableness of costs and internal control
governing conference spending, we searched prior reports and the internet,
and inquired with NSF retreat planners and the NSF internal control team for federal
and NSF criteria related to conference spending. We reviewed NSF’s compliance with
applicable provisions of pertinent guidance identified, including:

   •   NSF Bulletin 00-04 - Conference Planning and Refreshments,
   •   NSF Bulletin 11-08, Local Travel Expenses
   •   NSF Bulletin 09-03, Travel - Definition of Official Travel
   •   NSF Financial Management Policy Manual
   •   Visa Purchase Card Program Handbook and Training Manual, and
   •   Federal Travel Regulation Part 301.74 - Conference Planning.

Instances of noncompliance with the portion of this guidance pertinent to our audit
objectives are noted in our audit finding.

In answering our objective, we requested that retreat planners provide documentation
supporting retreat costs including approval from management, price quotations obtained
in researching venues, contracts, and detailed invoices from vendors. We developed a
process map and testing sheets to consistently document retreat costs and evaluate
                                             8
compliance with applicable guidance. We independently searched NSF records of
procurement card charges and travel reimbursement for unreported retreat costs. As
needed, we followed up with and interviewed retreat planners to inquire about missing
documentation or to confirm our understanding of exceptions noted. We also
interviewed staff in the Office of Information and Resource Management, the Division of
Financial Management, and the Division of Acquisition and Contract Support to clarify
applicable guidance and to gain an understanding of their procedures and roles with
respect to retreat related activities, such as the solicitation and competitive bid, travel
authorization, and payment processes.

Through interviewing NSF staff and reviewing documentation, we also obtained an
understanding of management controls over staff retreat spending. We identified
internal control deficiencies, which we discuss in this report. However, we did not
identify any instances of fraud, illegal acts, violations, or abuse.

During the course of this audit, we relied on information and data received from NSF in
electronic format that had been entered into a computer system or that resulted from
computer processing. We tested the reliability of NSF’s computer-processed data by
corroborating the results with NSF officials independent of the computer system.
Based on our assessment, we concluded the computer-processed data was sufficiently
reliable to use in meeting the audit’s objective.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
finding and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective.

We held an exit conference with NSF management on February 14, 2012.




                                             9
